         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report




       EPA Could Improve Controls Over
       Mainframe System Software
       Report No. 2007-P-00008   


       January 29, 2007

Abbreviations

EPA         U.S. Environmental Protection Agency
NCC         National Computer Center
NIST        National Institute of Standards and Technology
OEI         Office of Environmental Information
OIG         Office of Inspector General
OTOP        Office of Technology Operations and Planning
RTP         Research Triangle Park
                       U.S. Environmental Protection Agency                                              2007-P-00008

                                                                                                      January 29, 2007 

                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment

Why We Did This Review            EPA Could Improve Controls Over Mainframe
We sought to determine if         System Software
access to and modification of
mainframe system software at       What KPMG Found
the U.S. Environmental
Protection Agency (EPA)           KPMG identified several weaknesses in EPA’s internal controls over its
National Computer Center in
                                  mainframe system software, including:
Research Triangle Park in
Raleigh, North Carolina, is
controlled in accordance with         ¾   Roles and responsibilities were not clearly assigned. 

Agency and Federal guidance,          ¾   Change controls were not performed in accordance with Agency policies. 

as well as best practices.            ¾   Policies, procedures, and guides could be strengthened. 

                                      ¾   Security settings for sensitive datasets and programs were not effectively

Background                                configured or implemented.

The EPA’s Office of Inspector     As a result of these weaknesses, EPA is exposed to greater risk since its
General contracted KPMG,          mainframe system software could potentially be compromised.
LLP (KPMG) to conduct an
audit of mainframe system          What KPMG Recommends
software. Controls over
system software access and        KPMG recommends that the Office of Environmental Information:
modifications are designed to
(1) limit and/or monitor access       ¾	 Improve management oversight and review of primary support contractor
to system software resources             activity, and clearly assign roles and responsibilities to ensure personnel
to protect against unauthorized          are held accountable.
modification, loss, and               ¾ Ensure change control procedures are performed in accordance with
disclosure; (2) reduce the risk          existing Agency and Federal guidance.
of the introduction of                ¾ Strengthen existing policies, procedures, and guides to establish standards
unauthorized changes; and (3)            for implementing key security controls for mainframe system software.
limit and monitor access to           ¾ Appropriately configure and implement security settings for sensitive
powerful system software                 datasets and programs.
programs.
                                  This report contains material that is confidential business information, proprietary
                                  information, or source selection information. Unauthorized disclosure of this
For further information,
contact our Office of
                                  Appendix or any of its content may violate the provisions of the Trade Secrets
Congressional and Public          Act, 18 U.S.C. 1905; the Procurement Integrity Act, 41 U.S.C. 423; the Freedom
Liaison at (202) 566-2391.        of Information Act, 5 U.S.C. 552; the Privacy Act, 5 U.S.C. 552a; and/or the
                                  Federal Acquisition Regulation, Section 3.104 (48 CFR 3.104). Due to the
To view the full report,          sensitive nature of the report’s technical findings, the Office of Inspector General
click on the following link:
www.epa.gov/oig/reports/2007/
                                  removed Appendices A and B from the public version of the report.
20070129-2007-P-00008.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                       OFFICE OF 

                                                                                  INSPECTOR GENERAL



                                        January 29, 2007

MEMORANDUM

SUBJECT:       EPA Could Improve Controls Over Mainframe System Software
               Report No. 2007-P-00008

TO:            Molly A. O’Neill
               Assistant Administrator for Environmental Information and
               Chief Information Officer


This is the final report on the subject audit conducted by KPMG, LLP, on behalf of the Office of
Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA). This report
contains findings that describe the problems KPMG auditors have identified and corrective
actions KPMG recommends. This audit report represents the opinion of KPMG and does not
necessarily represent the final EPA position. Final determination on matters in this report will be
made by EPA managers in accordance with established audit resolution procedures.

The estimated cost of this report – calculated by adding the contract costs and multiplying the
project’s staff days by the applicable daily full cost billing rates in effect at the time – is
$554,029.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective action plan for agreed upon
actions, including milestone dates. Due to the sensitive nature of the technical findings, we have
removed Appendices A and B from the report version made available to the public. The public
copy of this report will available at http://www.epa.gov/oig. Additional copies of the full report
can be obtained by contacting our Office of Congressional and Public Liaison at (202) 566-2391.

If you or your staff have any questions, please contact Rudolph M. Brevard, Director,
Information Resources Management Assessments at (202) 566-0893 or brevard.rudy@epa.gov.


                                             Sincerely,



                                             Bill A. Roderick
                                             Acting Inspector General
Final Audit Report




       EPA Could Improve Controls Over
       Mainframe System Software


       January 29, 2007
                    EPA Could Improve Controls Over Mainframe System Software



                                Table of Contents 


Chapters
 1    Overview ................................................................................................................    1     


              Background ....................................................................................................      1         

              Objectives and Scope ....................................................................................            1         

              Methodology ...................................................................................................      2         


 2    Results in Brief ......................................................................................................      4


 3    Improvements Needed in the Assignment of Roles and Responsibilities ......                                                   5


              Recommendations .........................................................................................            6         

              Agency’s Response and KPMG’s Evaluation.................................................                             7


 4    Change Controls Need Improvements ................................................................                           8


              Recommendations .........................................................................................            9         

              Agency’s Response and KPMG’s Evaluation.................................................                            10 


 5    Policies, Procedures, and Manuals Can Be Improved.......................................                                    12


              Recommendations .........................................................................................           12         

              Agency’s Response and KPMG’s Evaluation.................................................                            13 


 Status of Recommendations and Potential Monetary Benefits.................................                                       14




Appendices
 A    Detailed Findings Related to Technical Controls Over
      Sensitive Datasets and Programs .......................................................................                     16


 B    Agency Response to Technical Control Findings Disclosed in Appendix A ..                                                    17


 C    Agency Response to Draft Audit Report (Chapters 3 – 5).................................                                     18


 D    Audit Criteria..........................................................................................................    24


 E    Distribution ............................................................................................................   29

                               Chapter 1
                                   Overview

Background
         The U.S. Environmental Protection Agency’s (EPA’s) Office of Inspector
         General (OIG) engaged KPMG, LLP to conduct an audit of access to and
         modification of the EPA’s mainframe system software housed at the Agency’s
         National Computer Center (NCC). The NCC is located at the Research Triangle
         Park (RTP) campus in Raleigh, North Carolina.

         The EPA’s mainframe is a general support system that supports large-scale data
         processing and provides a national data repository for the Agency’s
         environmental, administrative, financial, and scientific systems. Users of the
         mainframe include the Agency’s program and regional offices, laboratories, and
         external business partners (e.g., states, universities, and others, such as qualified
         agencies and contractors, with public access requirements).

         The NCC has organizational responsibility for the mainframe. The NCC is part of
         the EPA’s Office of Environmental Information’s (OEI) Office of Technology
         Operations and Planning (OTOP). Maintenance and security administration of
         the mainframe is performed by a primary support contractor.

Objectives and Scope
         Controls over access to and modifications of system software are designed to (1)
         limit and/or monitor access to system software resources to protect against
         unauthorized modification, loss, and disclosure; (2) reduce the risk of the
         introduction of unauthorized changes; and (3) limit and monitor access to
         powerful system software programs.

         KPMG was engaged to audit only the system software controls associated with
         the mainframe system. The audit was conducted to assess whether EPA
         implemented adequate controls over access to and modification of the mainframe
         system software. The scope of our audit included an evaluation of system
         software and logical access controls as defined by the Government Accountability
         Office’s (GAO’s) Federal Information System Control Audit Manual (FISCAM):

         ¾	 System Software Controls. System software is a set of programs designed to
             operate and control the processing activities of computer equipment.
             Examples of system software include operating system software, system
             utilities, program library systems, file maintenance software, security
             software, data communication systems, and database management systems.


                                            1

              System software helps control and coordinate the input, processing, output,
              and data storage associated with all of the applications that run on a system.
              Some system software can change data and program code on files without
              leaving an audit trail. Controls over access to and modification of system
              software are essential in providing reasonable assurance that operating system-
              based security controls are not compromised and that the system will not be
              impaired.

         ¾	 Access Controls. Access controls should provide reasonable assurance that
              computer resources (data files, application programs, and computer-related
              facilities and equipment) are protected against unauthorized modification,
              disclosure, loss, or impairment. Such controls include logical controls, such
              as security software programs designed to prevent or detect unauthorized
              access to sensitive files. The objectives of limiting access are to ensure that:

              •	 users have only the access needed to perform their duties;
              •	 access to very sensitive resources, such as security software programs, is
                 limited to very few individuals; and
              •	 employees are restricted from performing incompatible functions or
                 functions beyond their responsibility.

Methodology
         Our audit methodology was primarily derived from Section 3.4 of GAO’s
         FISCAM. The FISCAM provides guidance that describes the computer-related
         controls that auditors should consider when assessing the integrity,
         confidentiality, and availability of computerized data. We supplemented our
         FISCAM-based audit procedures with additional auditor-designed steps to ensure
         that the audit was appropriately tailored to EPA’s mainframe environment.
         Controls were tested for compliance with National Institute of Standards and
         Technology (NIST) 800-series guidance, EPA-specific policies and procedures,
         and other Federal guidance and industry best practices. For specific criteria, refer
         to Appendix B.

         We conducted the audit in accordance with Generally Accepted Government
         Auditing Standards (GAGAS) issued by the Comptroller General of the United
         States.

         We conducted audit steps to determine if:

         ¾	 access authorizations over mainframe system software are approved, limited
            to access necessary to perform assigned functions, and periodically reviewed;

         ¾	 system software changes are authorized, tested, and approved prior to
            implementation;



                                            2

¾	 installation of system software is documented and reviewed;

¾	 policies and procedures have been implemented to define appropriate
   authorized use of and to monitor use system utilities; and

¾	 inappropriate or unusual activity is investigated and appropriate actions taken.

Audit fieldwork consisted of inspecting documentation, interviewing NCC federal
and primary support contractor personnel, and conducting tests. Examples of
tests we performed included assessing (1) security configurations and settings, (2)
programmer access and privileges to system software and sensitive programs, and
(3) recent software changes against Agency guidelines and best practices.
Fieldwork was performed at the NCC from March 2006 through June 2006.

At the start of audit fieldwork, KPMG obtained documentation for review and
conducted an initial site visit to the NCC to gain an understanding of how EPA
manages configuration, access to, and modifications of mainframe system
software. During the initial visit, the audit team also validated the mainframe
environment, which had been documented in a survey completed by EPA
management prior to the start of the audit. Over the course of the audit, additional
site visits were conducted to interview NCC and primary support contractor
personnel and to conduct audit testing.




                                 3

                      Chapter 2
                    Results in Brief

We positively noted EPA management’s and the primary support contractor’s
dedication and proactive approach to ensuring and improving the security of the
mainframe system software and protecting the Agency’s information assets.
While our audit did not uncover any breaches in mainframe system software
security, we noted that controls over access to and modification of mainframe
system software can be improved. These weaknesses are discussed in the
following chapters:

¾	 Improvements Needed in the Assignment of Roles and Responsibilities
   (Chapter 3)

¾	 Change Controls Need Improvements (Chapter 4)

¾	 Policies, Procedures, and Guides Can Be Improved (Chapter 5)

In general, we recommend that EPA management:

¾	 Improve management oversight and review of primary support contractor
   activities and clearly assign roles and responsibilities to ensure personnel are
   held accountable.

¾	 Ensure change control procedures are performed in accordance with existing
   Federal and Agency guidance.

¾	 Strengthen existing policies, procedures, guides, and supporting processes to
   establish standards for implementing key security controls for mainframe
   system software.

¾	 Appropriately configure and implement security settings for sensitive datasets
   and programs.

Each of the weaknesses included in this report were initially discussed with EPA
management during audit fieldwork as potential observations to validate the
factual accuracy of our results. Chapters 3 through 5 of this report provide a
summary discussion of each audit finding. Due to the sensitive nature of the
findings related to the mainframe technical controls, we summarized the results in
Appendix A and provided the details to EPA personnel. Appendix A will be
removed from the final report released to the public.




                                 4

                        Chapter 3
Improvements Needed in the Assignment of
       Roles and Responsibilities

  EPA does not have effective oversight processes in place to help ensure that
  technical controls over sensitive datasets and programs are appropriately
  implemented. The OEI Information Security Manual requires Information
  Managers to receive written requests before creating system accounts or granting
  users privileges to use a system. The manual also requires Information Managers
  to conduct monthly reviews of system logs, support requests, and previous review
  findings. The Enterprise Server (Mainframe) Security Plan also states that
  monitoring of system and user activity for security violations is to be performed
  daily and in real time. However, we found that NCC personnel did not follow
  established policy. In addition, we requested but were unable to obtain evidence
  that NCC personnel performed periodic reviews and revalidation of the
  mainframe access. Further, NCC personnel had not activated system logging to
  create the necessary audit trails to verify system changes and users’ activity.

  These weaknesses exist because EPA had not assigned the roles and
  responsibilities for monitoring and reviewing mainframe system software
  security. EPA had not clearly defined the duties for monitoring and reviewing
  mainframe system software security. Nor had the NCC assigned the duties to
  specific groups, personnel, or contractors to ensure accountability. We also found
  that NCC personnel or primary support contractors, who are responsible for
  monitoring and reviewing mainframe system software, do not have clearly
  defined job descriptions.

  As a result, EPA management does not have sufficient oversight processes in
  place to assure the operating environment of the mainframe. In addition,
  management does not have processes to determine whether controls are in place
  and working as intended. As noted in Appendix A, we found instances where
  current security configurations and settings could be exploited through backdoors
  to the system. Given the lack of adequate management authorization and review
  of programmers’ access/privileges and system programmers’ activities, the risk of
  exploitation of these weaknesses is increased.

  Furthermore, without logging of system changes and access, management does
  not have a record to confirm that approved system activity and settings are
  appropriate. As such, programmers could make unauthorized changes to sensitive
  datasets and libraries, and management would not have a method to detect the
  activity. We discuss the specific mainframe technical weaknesses in Appendix A.




                                   5

        Following issuance of the draft audit report, EPA management took steps toward
        implementing corrective action to address these weaknesses. EPA updated the
        Enterprise Server Standards and Procedures document to require the monitoring
        of sensitive programs and utilities. EPA also updated the Enterprise Server
        Standards and Procedures document to require reviews of the system activity
        during weekly status meetings. EPA management also revised the Enterprise
        Server (Mainframe) Security Plan to include a process for documenting and
        reviewing/revalidating management approvals of system software access.

        Additionally, in response to the draft audit report, EPA management provided us
        with examples of minutes from the weekly status meetings with the primary
        support contractor. EPA management felt the meeting minutes documented
        management’s review and approval of the primary contractor activity. We noted
        that the meeting minutes did not sufficiently document evidence of management
        discussions or reviews of the primary support contractor’s implementation of
        system software configurations, security settings, and access controls in
        adherence with EPA guidelines.

        Management also provided us with a position description for an EPA
        management official with mainframe security responsibility. Our review noted
        that the position description defined major duties such as developing application
        programs and performing risk and security assessments. However, the position
        description did not document responsibility for monitoring and routinely
        reviewing mainframe system software to help ensure that the primary support
        contractor appropriately implements controls.

Recommendations
        We recommend that the Director for the Office of Technology Operations and
        Planning (OTOP):

        1.	 Enforce implementation of updated policies and procedures for (a)
            documenting and reviewing/revalidating management approvals of
            programmers’ access and privileges to sensitive datasets, libraries, utilities,
            and programs including the continued use of the newly created Programmer
            Access and Privileges form and (b) logging and monitoring the use of
            sensitive utilities and programs. Additionally, ensure NCC personnel are
            conducting, at a minimum, monthly reviews of programmer’s
            access\privileges in accordance with EPA guidance and maintaining on file
            the reviews and any followup actions taken to investigate any exceptions.

        2.	 Revise the mainframe security position description to include responsibilities
            for monitoring and routinely reviewing mainframe system software updates to
            help ensure the primary support contractor appropriately implements the
            controls. Additionally, ensure the position description requires the EPA



                                          6

            personnel to document and retain copies of EPA management reviews of
            system software.

Agency’s Response and KPMG’s Evaluation
         Management officials generally agreed with the recommendations. EPA
         management has updated and formalized its processes for documentation of
         approval for system software access. Additionally, management has updated
         EPA’s Standards and Procedures for the NCC Enterprise Server to include a
         matrix on EPA and federal contractor personnel roles and responsibilities as it
         applies to managing the mainframe system software activities.

         Following receipt of the Agency’s response to the draft report, we held a meeting
         with NCC officials to clarify the findings and recommendations reported in this
         chapter. During the meeting, the auditors agreed to revise the findings and
         recommendations discussed in this chapter to more accurately communicate the
         information provided. NCC officials agreed to provide additional documentation
         for the audit team’s consideration and review. The revisions to the findings and
         recommendations and our evaluation of the additional documentation provided by
         NCC are reflected in this report.




                                          7

                      Chapter 4
Change Controls Need Improvements

We noted that EPA has documented policies and procedures regarding system
software change controls. This guidance includes practices for normal and
emergency system software changes. However, during testing of the selection of
change requests, we found that EPA management is not (1) enforcing current
policies and procedures and (2) providing the necessary oversight to ensure
mainframe system software changes are appropriate. We found software changes
are not adequately and consistently authorized, tested, approved, implemented, or
reconciled. Specifically, during fieldwork we noted that:

¾	 Thirteen percent (2 of 15) of selected change requests (CRs) were tested prior
   to implementation into the production environment. Additionally, one CR
   was incorrectly entered as an emergency change and subsequently incorrectly
   automatically approved.

¾	 Documentation of the review of end-user and programmer testing results for
   changes is not maintained.

¾	 Documentation of CR approval for 73 percent (11 of 15) of selected CR was
   maintained on file. The emergency CR was one of the four without the
   required documented approval.

¾	 EPA was unable to provide evidence that Agency personnel routinely conduct
   steps to (1) identify and select the changes that should be implemented based
   on management’s determination and (2) analyze the impact of planned
   changes on the security and processing reliability of the mainframe
   environment.

¾	 A reconciliation of changes made to the mainframe production environment to
   approved changes does not exist.

¾	 System programmers have access to test and production environments and are
   often responsible for implementing their own changes in the production
   mainframe environment.

These weaknesses exist because the NCC does not enforce the existing policy for
authorizing, testing, and approving system software changes. Nor does
management consistently document its oversight practices to help ensure all
system changes are approved and implemented as intended. Based upon our
review of procedures and standards and inquiry of NCC officials, we determined
that policies and/or procedures requiring the routine analysis of costs and benefits



                                  8

        of changes and the consideration of the impact on processing reliability and
        security prior to implementation had not been formally or informally
        implemented. Additionally, an audit trail, which would assist management to
        reconcile approved to implemented system changes, does not exist. Furthermore,
        EPA management is not enforcing segregation of duties for systems programmers
        to prevent an individual from testing changes and consequently, implementing
        their own changes into the production environment.

        Changes that are not adequately authorized, tested, and approved prior to
        implementation could result in the implementation of unauthorized and
        potentially inaccurate program changes. This could possibly lead to corruption of
        data or system downtime. As a result, the operating environment may be
        adversely impacted or system failures may occur. Furthermore, when a single
        programmer is responsible for testing a change and implementing that same
        change, there is the increased risk of the change control process being
        inadvertently or willfully subverted. This could result in unauthorized system
        changes being placed into production without the Agency’s knowledge.

        In response to the draft audit report, EPA management took steps to implement
        corrective actions to address the finding. Management updated the Enterprise
        Server Standards and Procedures to document a process for reconciling changes
        through the use of a new change activity reports and Remedy system logs of
        approved changes. The new procedures require management to review system
        changes at weekly meetings with the primary support contractor and monitor
        change activity reports. We determined that the new process, once implemented,
        will be a key component in helping EPA management identify any unapproved
        changes introduced in the mainframe environment. However, the process will not
        validate that all approved changes have been properly implemented and
        documented in accordance with existing change control procedures. The
        reconciliation process should include a comparison of a report of the changes
        approved by management with a system generated change activity report that
        includes an official record of the changes implemented into production. The
        reports should include dates of management approval and implementation to
        provide the ability to validate that approvals and implementation are occurring in
        a timely manner.

        Upon inspection of a sample change activity report provided by NCC
        management, we noted that activity details, such as the type of action performed
        on the datasets (i.e., update, alter, etc.), associated with the logged user action is
        not included in the report. We also noted the updated Enterprise Server
        Standards and Procedures document does not identify who is responsible for
        conducting the new reconciliation procedures.

Recommendations
        We recommend that the Director for OTOP:


                                           9

         3.	 Issue a memorandum to the National Computer Center (NCC) reinforcing
             management’s responsibility for complying with applicable Agency policy for
             system change management.

         4.	 Direct the NCC to develop and implement a management review process to
             help ensure personnel are following procedures for testing, approving, and
             implementing system software changes. Ensure the developed procedures
             require NCC management to document management’s review of (1) system
             changes before implementing into production and (2) emergency changes to
             the mainframe to confirm all required procedures were followed.

         5.	 Update the Enterprise Server Standards and Procedures to include procedures
             for documenting mainframe change management decisions. Ensure the
             procedures include identifying and documenting (1) the steps management
             uses to identify the changes to implement and (2) management’s assessment
             of the impact of planned changes on the security and reliability of the
             mainframe processing environment.

         6.	 Implement the newly developed reconciliation procedures and ensure that an
             audit trail of changes made to production datasets is maintained and compared
             to approved/authorized changes. Revise the new procedures to (1) assign
             related responsibilities to the appropriate individuals; (2) log modifications
             made to production datasets, to include logging user IDs and actions
             performed (i.e., alter, update, etc); and (3) retain evidence of the mandated
             daily reviews, reconciliations, and followup actions.

         7.	 Conduct and document a review of the business need for systems
             programmers to test and implement their own changes into the production
             environment. If EPA management makes the determination that these duties
             cannot be segregated amongst different individuals, then implement
             compensating controls to prevent one individual from having complete control
             of the change process and update the Enterprise Server Standards and
             Procedures and the Enterprise Server Security Plan, accordingly.

Agency’s Response and KPMG’s Evaluation

         Management generally disagreed with these recommendations. Management
         believes the EPA’s operational approvals are recorded within the Remedy Change
         Control System. Additionally, all changes are discussed and documented during
         the weekly Enterprise Server (Mainframe) manger’s meeting with the primary
         support contractors. A review of proposed system software changes and post
         review of changes are performed, reconciled, and maintained on file with the
         primary support contractor.




                                         10

Management has implemented mitigating controls to prevent system programmer
from testing and implementing their own changes into the production
environment. System administrators need concurrence from back-up system
administrators prior to product implementation.

Following receipt of the Agency’s response to the draft report, we held a meeting
with NCC officials to clarify the findings and recommendations reported in this
chapter. During the meeting the auditors agreed to revise the findings and
recommendations discussed in this chapter to more accurately communicate the
information provided. NCC officials agreed to provide additional documentation
for the audit team’s consideration and review. The revisions to the findings and
recommendations and our evaluation of the additional documentation provided by
NCC are reflected in this report.




                                11

                              Chapter 5
 Policies, Procedures, and Manuals Can Be Improved

        NCC management needs to improve its structure for defining the NCC’s overall
        security program. EPA’s Information Security Manual requires organizational
        heads to establish an information security program that implements Agency-level
        information security policies and procedures. Although EPA management has
        listed datasets in the updated Enterprise Server Standards and Procedures
        document, EPA has not documented (1) specifications that EPA management uses
        for determining which system datasets are considered sensitive and (2) procedures
        for using system utilities to monitor and review the use of sensitive programs on
        the mainframe. In particular, we noted that:

        ¾	 During audit fieldwork, EPA has not documented sensitive system datasets in
           existing policies or procedures. Following issuance of the draft audit report,
           NCC management resolved this finding by updating the Enterprise Server
           Standards and Procedures document to include the list of sensitive datasets.

        ¾	 The Office of Environmental Information (OEI) Information Security Manual
           and the EPA Information Security Manual, which include policies and
           procedures for limiting access to system software, have not been updated for
           at least 4 years. OEI management is currently updating these guidance
           documents and the revisions have not been finalized and officially approved.

        Promulgated and up-to-date policies, procedures, and standards serve as
        management’s communication of the organization’s standards that must be met.
        Without clearly defined requirements, management does not have an effective
        basis to evaluate performance outcomes against expectations. As such, there is an
        increased likelihood of:

        ¾	 unauthorized or inappropriate use of sensitive programs going undetected, or

        ¾	 inadequate monitoring of system resources necessary to assure the integrity of
           data processed by the mainframe.

Recommendations
        We recommend that the Director of OTOP:

        8.	 Update the Enterprise Server Standards and Procedures document to include
            (1) specifications that EPA management uses for determining which system
            datasets are considered sensitive and (2) procedures for using system utilities
            to monitor and review the use of sensitive programs on the mainframe.



                                         12

         9.	 Complete efforts to update the Office of Environmental Information (OEI)
             Information Security Manual and the EPA Information Security Manual.
             Subsequent to finalizing the changes, ensure the manuals are (1) reviewed
             timely by EPA management for adequacy, accuracy, and completeness; and
             (2) approved by EPA management in a timely manner.

         10. Establish a Plan of Action and Milestone (POA&M) for all weaknesses
             identified in Chapters 3, 4, 5 and Appendix A.

Agency’s Response and KPMG’s Evaluation
         Management concurred with these recommendations.

         Following receipt of the Agency’s response to the draft report, we held a meeting
         with NCC officials to clarify the findings and recommendations reported in this
         chapter. Although management concurred with our recommendations, the
         auditors agreed to revise the findings presented in this chapter to more accurately
         communicate the information provided. NCC officials agreed to provide
         additional documentation for the audit team’s consideration and review. The
         revisions to the findings and our evaluation of the additional documentation
         provided by NCC are reflected in this report.




                                          13

              Status of Recommendations and Potential
                          Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                               RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                              Planned
Rec.   Page                                                                                                  Completion   Claimed    Agreed To
No.     No.                          Subject                           Status1         Action Official          Date      Amount      Amount

 1      6     Enforce implementation of updated policies and             U       Director, Office of                         0
              procedures for (a) documenting and                                 Technology Operations and
              reviewing/revalidating management approvals of                     Planning
              programmers’ access and privileges to sensitive
              datasets, libraries, utilities, and programs including
              the continued use of the newly created
              Programmer Access and Privileges form and (b)
              logging and monitoring the use of sensitive utilities
              and programs. Additionally, ensure NCC
              personnel are conducting, at a minimum, monthly
              reviews of programmer’s access\privileges in
              accordance with EPA guidance and maintaining on
              file the reviews and any followup actions taken to
              investigate any exceptions.

 2      6     Revise the mainframe security position description         U       Director, Office of                         0
              to include responsibilities for monitoring and                     Technology Operations and
              routinely reviewing mainframe system software                      Planning
              updates to help ensure the primary support
              contractor appropriately implements the controls.
              Additionally, ensure the position description
              requires the EPA personnel to document and retain
              copies of EPA management reviews of system
              software.

 3      10    Issue a memorandum to the National Computer                U       Director, Office of                         0
              Center (NCC) reinforcing management’s                              Technology Operations and
              responsibility for complying with applicable Agency                Planning
              policy for system change management.

 4      10    Direct the NCC to develop and implement a                  U       Director, Office of                         0
              management review process to help ensure                           Technology Operations and
              personnel are following procedures for testing,                    Planning
              approving, and implementing system software
              changes. Ensure the developed procedures
              require NCC management to document
              management’s review of (1) system changes
              before implementing into production and (2)
              emergency changes to the mainframe to confirm all
              required procedures were followed.

 5      10    Update the Enterprise Server Standards and                 U       Director, Office of                         0
              Procedures to include procedures for documenting                   Technology Operations and
              mainframe change management decisions.                             Planning
              Ensure the procedures include identifying and
              documenting (1) the steps management uses to
              identify the changes to implement and (2)
              management’s assessment of the impact of
              planned changes on the security and reliability of
              the mainframe processing environment.




                                                                             14

                                                                                                                               POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed To
    No.      No.                          Subject                           Status1         Action Official          Date      Amount      Amount

     6       10     Implement the newly developed reconciliation              U       Director, Office of                         0
                    procedures and ensure that an audit trail of                      Technology Operations and
                    changes made to production datasets is                            Planning
                    maintained and compared to approved/authorized
                    changes. Revise the new procedures to (1) assign
                    related responsibilities to the appropriate
                    individuals; (2) log modifications made to
                    production datasets, to include logging user IDs
                    and actions performed (i.e., alter, update, etc); and
                    (3) retain evidence of the mandated daily reviews,
                    reconciliations, and followup actions.

     7       10     Conduct and document a review of the business             U       Director, Office of                         0
                    need for systems programmers to test and                          Technology Operations and
                    implement their own changes into the production                   Planning
                    environment. If EPA management makes the
                    determination that these duties cannot be
                    segregated amongst different individuals, then
                    implement compensating controls to prevent one
                    individual from having complete control of the
                    change process and update the Enterprise Server
                    Standards and Procedures and the Enterprise
                    Server Security Plan, accordingly.

     8       12     Update the Enterprise Server Standards and                U       Director, Office of                         0
                    Procedures document to include (1) specifications                 Technology Operations and
                    that EPA management uses for determining which                    Planning
                    system datasets are considered sensitive and (2)
                    procedures for using system utilities to monitor and
                    review the use of sensitive programs on the
                    mainframe.

     9       13     Complete efforts to update the Office of                  U       Director, Office of                         0
                    Environmental Information (OEI) Information                       Technology Operations and
                    Security Manual and the EPA Information Security                  Planning
                    Manual. Subsequent to finalizing the changes,
                    ensure the manuals are (1) reviewed timely by EPA
                    management for adequacy, accuracy, and
                    completeness; and (2) approved by EPA
                    management in a timely manner.

    10       13     Establish a Plan of Action and Milestone (POA&M)          U       Director, Office of                         0
                    for all weaknesses identified in Chapters 3, 4, 5                 Technology Operations and
                    and Appendix A.                                                   Planning


1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                  15

                                                                           Appendix A

Details of Findings Related to Technical Controls Over
           Sensitive Datasets and Programs

      This Appendix is for restricted distribution. This Appendix contains
      material that is confidential business information, proprietary
      information, or source selection information. Unauthorized disclosure
      of this Appendix or any of its content may violate the provisions of the
      Trade Secrets Act, 18 U.S.C. 1905; the Procurement Integrity Act, 41
      U.S.C. 423; the Freedom of Information Act, 5 U.S.C. 552; the Privacy
      Act, 5 U.S.C. 552a; and/or the Federal Acquisition Regulation, Section
      3.104 (48 CFR 3.104). Due to the sensitive nature of these findings, the
      Office of Inspector General removed this Appendix from the public
      version of the report. For a complete copy of this report, contact the
      Environmental Protection Agency, Office of Inspector General, Office
      of Congressional and Public Liaison at (202) 566-2391.




                                        16

                                                                     Appendix B

Agency Response to Technical Control Findings
          Disclosed in Appendix A
   This Appendix is for restricted distribution. This Appendix contains
   material that is confidential business information, proprietary
   information, or source selection information. Unauthorized
   disclosure of this Appendix or any of its content may violate the
   provisions of the Trade Secrets Act, 18 U.S.C. 1905; the Procurement
   Integrity Act, 41 U.S.C. 423; the Freedom of Information Act, 5
   U.S.C. 552; the Privacy Act, 5 U.S.C. 552a; and/or the Federal
   Acquisition Regulation, Section 3.104 (48 CFR 3.104). Due to the
   sensitive nature of these findings, the Office of Inspector General
   removed this Appendix from the public version of the report. For a
   complete copy of this report, contact the Environmental Protection
   Agency, Office of Inspector General, Office of Congressional and
   Public Liaison at (202) 566-2391.




                                   17

                                                                              Appendix C

         Agency Response to Draft Audit Report

                                   September 5, 2006

MEMORANDUM

SUBJECT:      Office of Environmental Information Response to Draft Audit Report:
              EPA Could Improve Controls Over Mainframe System Software
              Assignment/Project No: 2006-000215

FROM:	        Linda A. Travers
              Acting Assistant Administrator and Chief Information Officer

TO:           Rudolph M. Brevard
              Director, Information Resources Management Assessments
              Office of Inspector General


Thank you for the opportunity to respond to the draft audit report conducted by KPMG, LLC
on behalf of the U.S. Environmental Protection Agency, Office of the Inspector General
(OIG). The Office of Environmental Information (OEI) has placed great emphasis on
building and maintaining a secure mainframe environment as noted by observations made in
the report regarding the proactive approach of EPA/OEI to improve mainframe system
software controls, while protecting the Agency’s information assets. It is also important to
note that while many of the findings highlight improvements in procedural documentation,
the report was clear to point out the absence of any security breaches in mainframe system
software.

Attached is OEI’s response to the audit recommendations and specific comments on the
findings. Please contact Marian Cody, Director, Technology and Information Security Staff
and Chief Information Security Officer, at 202-566-0302, if you have any questions
regarding our comments. Thank you again for the opportunity to respond.

Attachments




Linda A. Travers
Acting Assistant Administrator and Chief Information Officer
Office of Environmental Information,
Environmental Protection Agency
Room 5000 AR North



                                           18

Chapter 3: Improvements Needed in the Assignment of Roles and Responsibilities

OIG Recommendations (in bold):

We recommend that the Director of Office of Technology Operations and Planning (OTOP)
should:

1. Develop and implement formalized processes in accordance with existing policy for
documenting approvals of system software access, conducting periodic
reviews/revalidation of access, and maintaining related documentation on file. Also,
clearly and formally assign roles and responsibilities and hold personnel accountable
for the performance of the processes.

OEI Response:

OEI accepts this recommendation. OEI has updated and formalized its processes for
documentation of approvals for system software access. The processes are documented in
the Enterprise Server (Mainframe) Security Plan. In addition, OEI has created a Programmer
Access and Privileges Form to document management approvals.

OEI conducts weekly reviews of system software access with the Primary Support
Contractor. This process is documented in the Enterprise Server (Mainframe) Security Plan.

Documentation of reviews is maintained in the National Computer Center (NCC) Records
Management Center.

Roles and responsibilities are formally assigned. However, to clarify the assignment, a Roles
and Responsibilities Matrix has been incorporated into the EPA Standards and Procedures
for the Enterprise Server (Mainframe) (Section 13.7 and Appendix G).

2. Conduct periodic management reviews to ensure that the processes are appropriately
performed and effective.

OEI Response:

OEI disagrees with this recommendation. On a weekly basis, management reviews approvals
for system software access. Further, OEI has updated the Enterprise Server Security Plan to
incorporate this process.

3. Identify NCC management responsible for security of the mainframe system software
and implement periodic EPA management reviews of system software to ensure that
primary support contractors have implemented controls in compliance with existing
regulations, policies, procedures, and guidelines.

OEI Response:




                                           19

OEI disagrees with this recommendation. In accordance with the NCC Enterprise Server
(Mainframe) Security Plan, responsibility for maintaining the integrity of the mainframe
system belongs to the EPA Enterprise Server (Mainframe) Manager. On a weekly basis,
management reviews approvals for system software security controls. In addition, OEI uses
a commercial auditing tool to measure compliance with existing mainframe policies
procedures, and guidelines. These practices are all documented in the Enterprise Server
Security Plan.

4. Perform, document, and maintain file reviews of controls for monitoring the use of
sensitive system utilities.

OEI Response:

OEI disagrees with this recommendation. Auditing Procedures for the Enterprise Server
(Mainframe) are documented in the Enterprise Server Security Plan. The EPA Primary
Support Contractor reviews security audit logs and maintains the results of these reviews for
at least three years. In addition, oversight is periodically performed by the EPA Enterprise
Server (Mainframe) manager and results of these EPA reviews are maintained in the NCC
Records Management Center. Listed below are the logs reviewed and their frequency:
•	 Quarterly
     - (Data Set profile reports (UACC accesses))
     - Bypass Label Processing (BLP)
     - Authorized Program Facility (APF) for sensitive data sets
•	 Monthly
     - Trivial Password reports
     - Supervisory Command (SVC) reports (systems special mainframe system security
         administrators and backup processes)
•	 Weekly
     - DSMON reports (operating system integrity procedure)

5. Implement processes to correct technical mainframe weaknesses identified in
Appendix A.

Please see OEI’s specific response listed below.

Chapter 4: Change Controls Need Improvements

OIG Recommendations (in bold)

We recommend that the Director of Office of Technology Operations and Planning (OTOP)
should:

6. Ensure that formal procedures supporting existing Agency policies and standards
related to system software changes are developed, implemented, and enforced with
appropriate EPA management oversight.




                                            20

OEI Response:

OEI disagrees with this recommendation. EPA Standards & Procedures for the Enterprise
Server (Mainframe) documents procedures for system software changes.

The Remedy Change Control System is the official process for system software changes and
approvals. EPA NCC’s operational approval is recorded within the Remedy Change Control
System.

Additionally, all changes are discussed and documented during the weekly Enterprise Server
(Mainframe) manager meetings with the Primary Support Contractor. During this meeting, a
review of proposed system software changes, as well as a post review of changes is
performed, reconciled and documented. Documentation is on file with the Primary Support
Contractor.

7. Maintain an audit trail of changes implemented into production. The audit trail
should be used by management to review and reconcile implemented changes to
approve system software changes and to ensure that changes are appropriately
authorized.

OEI Response:

OEI disagrees with this recommendation. The Remedy Change Control System is the
official process for system software changes and approvals. This system also provides for
OEI’s official audit trail of software changes.

EPA NCC’s operational approval is recorded within the Remedy Change Control System.
Additionally, a system of checks and balances is in place for change requests requiring
independent approval from the NCC’s operational security and hosting operations groups.
The approvals are recorded in the Remedy Change Control System. These groups consist of
both federal and contracting staff.

All changes are discussed and documented during the weekly Enterprise Server (Mainframe)
manager’s meetings with the Primary Support Contractor. During this meeting, a review of
proposed systems software changes, as well as post review of changes are performed and
documented. Documentation is on file with the Primary Support Contractor.

8. Review the business need for systems programmers to test and implement their own
changes into the production environment. If EPA management makes the
determination that these duties cannot be segregated amongst different individuals,
compensating controls should be put in place to prevent complete control of the change
process by one individual.

OEI Response:




                                           21

OEI accepts this recommendation. The Primary Support Contractor’s IBM Systems group
convenes weekly to discuss all changes, including test results before changes are
implemented in the production environment. Additionally, as described above, EPA
performs oversight of this process through the weekly Enterpriser Server (Mainframe)
manager’s meeting.

Formal documentation of testing results by the system administrator responsible for
installation of a specified product is required and must include concurrence from the back-up
system administrator prior to production implementation. EPA Standards and Procedures
for the Enterprise Server (Section 4.2).

Where total separation of duties is not practical due to limited staffing, mitigating controls
have been put into place. In accordance with formal processes, system administrators are
responsible for testing of the specific product prior to implementation and concurrence from
the back up system administrator is required prior to production implementation. EPA
performs oversight of the process through the weekly meeting.

Chapter 5: Policies, Procedures, and Manuals Can Be Improved

OIG Recommendations (in bold):

We recommend that the Director of Office of Technology Operations and Planning (OTOP)
should:

9. Develop and implement formal procedures and guidelines for ensuring that
appropriate access control software configuration settings for the EPA’s mainframe
environment are implemented. As noted in chapter 3, accountability of associated roles
and responsibilities should be clearly defined and assigned.

OEI Response:

OEI disagrees with this recommendation. OEI has formal procedures requiring reviews of
resource access violations and system logs for other potential security violations. To
strengthen this practice, OEI will update its procedures to reflect an additional compensating
control by which the Primary Support Contractor audits the IBM Systems group’s use of
sensitive programs. Anomalies and suspected computer security incidents are reported to the
Agency’s CSIRC.

10. Identify and document sensitive datasets in existing policies and standards.

OEI Response:

OEI disagrees with this recommendation. The list of datasets is maintained in the EPA
Standards and Procedures for the Enterprise Server. Industry standards for the mainframe
industry do not recommend specifically identifying datasets as “sensitive” in system
documentation for security reasons.



                                            22

11. Develop and implement clearly defined formal procedures for monitoring and
reviewing the use of sensitive programs on the mainframe. Ensure that accountability
of roles and responsibilities are clearly defined and assigned.

OEI Response:

OEI accepts this recommendation.

12. Complete the ongoing efforts to update outdated security manuals. The manuals
should be reviewed by EPA management for adequacy, accuracy, completeness and
approved by EPA management in a timely manner.

OEI Response:

OEI accepts this recommendation. OEI acknowledges the need to update the EPA & OEI
Information Security Manuals.

13. Establish a Plan of Action and Milestone (POA&M) for all weaknesses identified in
this report.

OEI Response:

OEI accepts this recommendation.




                                        23

                                                                                    Appendix D

                                     Audit Criteria

The following details the laws, requirements, and/or guidelines used as criteria in guiding our
audit of information system controls over access to and modification of mainframe system
software at the National Computer Center in Research Triangle Park.

Improvements Needed in the Assignment of Roles and Responsibilities

¾	 The OEI Information Security Manual, Sections 7.3, states:

   “Information Managers must receive a signed written request from a designated manager
   prior to creating an account or assigning privileges.

   	 The written request must provide the user’s name and explicitly detail the access
      privileges requested. Creation of User accounts or assignment of access privileges
      without the approved written request is forbidden.

   	 If a request is received via e-mail, the request will be verbally confirmed with the
      requester prior to granting access privileges, and the e-mail annotated with the date and
      time of the verbal verification.”

   Additionally, Section 7.5 of the manual states:

   “Information Managers will conduct a monthly review of logs, support requests, inventories,
   authorized user lists, previous review findings, and/or technical problems and corrections for
   their information system(s) to help identify any current, recurring, or potential problems.
   Information Managers will attempt to resolve any discrepancies and, where necessary,
   present review findings to the appropriate management.”

¾	 National Institute of Standards and Technology (NIST) Special Publication (SP) 800-12, An
   Introduction to Computer Security – The NIST Handbook, states:

   “From time to time, it is necessary to review user account management on a system. Within
   the area of user access issues, such reviews may examine the levels of access each individual
   has, conformity with the concept of least privilege, whether all accounts are still active,
   whether management authorizations are up-to-date, whether required training has been
   completed, and so forth.”

   “The responsibilities and accountability of owners, providers, and users of computer systems
   and other parties concerned with the security of computer systems should be explicit.”




                                                24

   “In effect, checks and balances need to be designed into both the process as well as the
   specific, individual positions of personnel who will implement the process. Ensuring that
   such duties are well defined is the responsibility of management.”

   “Software is the heart of an organization's computer operations, whatever the size, and
   complexity of the system. Therefore, it is essential that software function correctly and be
   protected from corruption. Organizations should give care to the configuration and use of
   powerful system utilities. System utilities can compromise the integrity of operating systems
   and logical access controls.”

Change Controls Need Improvement

¾	 OTOP Directive 210.08, National Computer Center (NCC) Compatible Enterprise Server
   Mainframe Security, Section 6.4 – Installation and Maintenance guides that all operating
   system software installs, modifications, and maintenance will be conducted in a controlled,
   accountable, and auditable manner.

¾	 The EPA Enterprise Server Security Plan, states that:

   The NCC computer systems are subject to formal change management and problem
   management methodologies as follows:

   •	 All operating system and application development software is placed in a test
      environment before installation in the production environment.

   •	 All applications running in the central database environment are placed in a test
      environment before installation in the production environment.

   •	 The test environments are isolated from the production environment in a manner that
      prevents failures in the test environment from causing failures in the production
      environment.

   •	 All software and hardware upgrades must be approved by the NTSD technical manager
      on the Change Management System before being applied to the production environment.”

¾	 EPA’s Standards and Procedures for the NCC Enterprise Server establishes numerous
   standards and responsibilities related to system software changes, including the following:

   •	 Whenever any product is changed, the product and anything else that might be affected
      by that change must be tested, to include security.

   •	 Review is conducted to delete any remaining test data sets after a production installation.

   •	 NCC Systems Manager responsibilities include identifying the need for a product or
      component upgrade and informing EPA of the need to install an upgrade.



                                               25

   •	 Systems programmer responsibilities included monitoring software installations and
      upgrades to determine impact of the change on the system and customer community and
      reviewing vendor information sources for any known problems or customer impact.

¾	 Appendix III to Office of Management and Budget (OMB) Circular A-130, Security of
   Federal Automated Information Resources, states guides that separation of duties is the
   practice of dividing the steps in a critical function among different individuals. For example,
   one system programmer can create a critical piece of operating system code, while another
   authorizes its implementation. Such a control keeps a single individual from subverting a
   critical process.

Policies, Procedures, and Manuals Can Be Improved

¾	 The EPA Information Security Manual, Section 12 states:

   “This Information Security Manual is issued through the central program and presents
   information security policy and procedure derived from the EPA IRM Policy Manual,
   Chapter 8, Information Security. Each organization must establish an organizational
   information security program that implements these Agency-level information security
   policy and procedures.”

   “The procedural and technical methods used to achieve these goals will differ from
   organization to organization because security controls must be based on the types of
   information and information system platforms, threats, vulnerabilities, and level of risk for a
   given organization. To be effective, all security controls must support the Program’s policies
   and goals.”

¾	 NIST SP 800-12, An Introduction to Computer Security: The NIST Handbook, states:

    “Software is the heart of an organization's computer operations, whatever the size, and
   complexity of the system. Therefore, it is essential that software function correctly and be
   protected from corruption. Organizations should give care to the configuration and use of
   powerful system utilities. System utilities can compromise the integrity of operating systems
   and logical access controls.”

¾	 OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources,
   states:

   “A review of the security controls in each system and application should be performed when
   significant modifications are made to the system, but at least every three years.”

Technical Controls Over Sensitive Datasets and Programs

¾	 OTOP Directive 210.08, National Computer Center (NCC) Compatible Enterprise Server
   Mainframe Security, Section 6.3 – Data Security and Integrity, states:




                                               26
   •	 “Job Control Language (JCL), programs, and CLISTs for production control applications,
      and job schedulers for their execution, will be protected through mainframe system
      security at a level sufficient to prevent their unauthorized access or destruction, as well as
      prevent unauthorized changes to their mainframe system security profiles.

   •	 Personnel responsible for maintaining automated job schedulers will develop procedures
      to prevent exploitation of identified and inherent security exposures.”

   Additionally, Section 6.4 of the Directive states:

   •	 “All operating system software will be protected from unauthorized access through
      mainframe system security data set profiles. All access attempts will be audited through
      mainframe system security.

   •	 Operating system privileges will be restricted to the minimum required by designated
      individuals or processes for the purpose of the specific system operation to be performed
      and will be approved by the OTOP ADP Security Officer.

   •	 NCC Primary Support Contract Enterprise Server Support will develop and maintain
      procedures for requesting, granting, and rescinding privileges granted through operating
      system software. The procedures will provide for the maintenance of a list of privileges
      and personnel granted those privileges.”

¾	 The EPA Information Security Manual, Sections 3.2, 10.3, 11.2.7, and 12, state that:

   Everyone who uses or manages EPA’s information must be held accountable for his/her
   actions while using the Agency’s information systems. EPA holds information system users
   accountable for unauthorized activities. Unauthorized activities may result in intentional or
   unintentional damage, inappropriate disclosure, or denial of access to information resources,
   often referred to as denial of service. Information system owners and managers must ensure
   that there is a positive means of identifying each user. General support systems and major
   applications must have audit trails that maintain a record of each user’s activities while
   accessing the system or application. Audit trails must be reviewed regularly to ensure that
   users are held accountable for their actions.

   To the extent possible, the following functions within the Agency should be
   assigned to different individuals:

   •	 Data Creation and Control Functions
      - Data collection and preparation
      - Data entry
      - Data base administration

   •	   Software Development and Maintenance Functions
        - Applications programming
        - Design review


                                                27

       - Application testing and evaluation
       - Application maintenance”

   Major applications containing moderately and highly sensitive information and all general
   support systems must generate audit trails of accesses and changes to the system and to
   information and applications at the individual user level.

¾	 The Enterprise Server Security Plan, Section 3.6, states:

   “Data and software integrity are maintained through the following procedures:

   •	 Limits on user privileges ensure that only data belonging to the user is accessed or
      modified.
   •	 Use and review of system audit trails.
   •	 Restricting access to workstations used by Systems Programming personnel.”

¾	 Office of Management and Budget Circular A-130, Appendix III, Security of Federal
   Automated Information Resources, states:

   “Agencies must “obtain written management authorization, based upon the 

   acceptance of risk to the system, prior to connecting with other systems. Where 

   connection is authorized, controls shall be established which are consistent with the 

   rules of the system and in accordance with guidance from NIST.” 


¾	 NIST SP 800-47, Security Guide for Interconnecting Information Technology
   Systems, states:

   “The MOU/A [Memorandum of Understanding/Agreement] documents the terms and
   conditions for sharing data and information resources in a secure manner.
   Specifically, the MOU/A defines the purpose of the interconnection; identifies
   relevant authorities; specifies the responsibilities of both organizations; and defines
   the terms of agreement, including apportionment of costs and the timeline for
   terminating or reauthorizing the interconnection.”

¾	 NIST SP 800-53, Recommended Security Controls for Federal Information Systems, states:
   “The organization authorizes all connections from the information system to other
   information systems outside of the accreditation boundary and monitors/controls the system
   interconnections on an ongoing basis. Appropriate organizational officials approve
   information system interconnection agreements.”




                                               28

                                                                                Appendix E

                                    Distribution

Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Director, Office of Technology Operations and Planning
Director, Technology and Information Security Staff
Director, National Computer Center
Chief, Security and Business Management Branch
National Computer Center Security Officer
Audit Followup Coordinator, Office of Environmental Information
Audit Followup Coordinator, Technology and Information Security Staff
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Inspector General




                                             29

